                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
                    Reporting Entity: Department of Transportation - OIG
                  Month Ending Date: 10/31/2009

                                                        Recovery Act Funds Used on Recovery Act Activity
               Agency / Bureau                   Recovery Act TAFS         Obligation Type   US Indicator       State Code       Total Obligations    Total Gross
                                                                                                             (ONLY for grants                           Outlays
                                                                                                             and cooperative
No.                                                                                                            agreements)
      Department of Transportation -       (69-0131 2009 \ 2013)               Other            Y - US                              $731,466          $499,631
      OIG                                  Transportation - OIG -
 1                                         Recovery Act
 2
 3
 4
 5
 6
 7
 8
 9
10

                                              Non-Recovery Act Funds Used on Recovery Act Activity
               Agency / Bureau                Non-Recovery Act TAFS         Total FY 2009    Total FY 2009    Total FY 2010     Total FY 2010 Gross
                                                                             Obligations     Gross Outlays     Obligations            Outlays
No.
      Department of Transportation - OIG   (69-0130 2009) Transportation     $1,569,106       $1,569,106           $0                   $0
 1                                         - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                                                                                        DOT OIG Monthly Report Num 8 10-31-09
                                                                            OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0
       Reporting OIG: Department of Transportation - OIG
   Month Ending Date: 10/31/2009

      FTE Working on Recovery                         Testimonies:
       Newly Hired FTE
                          1.08                   Provided (monthly):    0
          (cumulative):
         FTE Funded by
    Recovery Act Funds    1.85                 Provided (cumulative):   3
          (cumulative):
     FTE Not Funded by
    Recovery Act Funds    17.07
          (cumulative):

                                                                                                                  Audits / Inspections / Evaluations /
            Complaints                  Whistleblower Reprisal Allegations               Investigations                                                         Training / Outreach
                                                                                                                                Reviews
           Monthly Data                             Monthly Data                         Monthly Data                        Monthly Data                         Monthly Data
                                                                                                                                                                 Training Sessions
             Received:       21                            Received:    0                         Opened:     5           Initiated (this month):   2                                 10
                                                                                                                                                                        Provided:
                                                                                                                     In Process (as of the end of
                                                           Accepted:    0                           Active:   8                                     4          Individuals Trained:   707
                                                                                                                                     the month):

                                                                                                                     Completed Final Published                   Hours of Training
                                                                                         Pending Decision:    8                                     1                                 707
                                                                                                                              Work Products:                            Provided:

                                                                                                                      Priority Interim Published                Outreach Sessions
                                                                                     Closed without Action:   0                                     0                                 13
                                                                                                                                 Work Products:                       Conducted:

                                                                                                                             Unpublished Work
                                                                                  Accepted for Prosecution:   1                                     0
                                                                                                                                    Products*:
                                                                                      Prosecution Denied:    1
                                                                                   Referred for Alternative
                                                                                                             0
                                                                                                Resolution:
 Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009

                                                                                                                     Completed Final Published                   Training Sessions
             Received:      184                            Received:    0            Closed without Action:   0                                     5                                 142*
                                                                                                                              Work Products:                            Provided:

                                                                                                                      Priority Interim Published
                                                           Accepted:    0         Accepted for Prosecution:   7                                     0          Individuals Trained: 10,134*
                                                                                                                                 Work Products:

                                                                                                                             Unpublished Work                    Hours of Training
                                                                                       Prosecution Denied:    1                                     0                              10,134*
                                                                                                                                     Products:                          Provided:
                                                                                   Referred for Alternative                                                     Outreach Sessions
                                                                                                              1               Cumulative Total:     5                                123
                                                                                                Resolution:                                                           Conducted:
                                                                                        Cumulative Total:     9
* Data adjusted based on new tracking system


                                                                                                                                                    DOT OIG Monthly Report Num 8 10-31-09
                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 10/31/2009

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On October 6, the DOT OIG issued an audit report on the "Status of Operating Administrations' Processes to Conduct
         1
                     Limited Quality Reviews of Recovery Act Recipient Data."
         2           On October 16, the DOT OIG announced its FY 2010 Recovery Act work plan.
                     On October 21 and 23, the Inspector General, Principal Assistant Inspector General for Auditing and Evaluation, and the
         3           Assistant Inspector General for Investigations spoke on ARRA related issues at the Association of Inspectors General Fall
                     Conference in Washington, D.C.
                     On October 28, the DOT OIG initiated an audit of the Federal Highway Administration's (FHWA) Federal-Aid Highway
                     Program Oversight of Procurement Practices for ARRA-Funded Contracts at State Departments of Transportation. The
         4
                     objective of this audit is to assess the adequacy of FHWA's oversight of State DOT contracting practices for awarding
                     ARRA contracts.
                     On October 29, the DOT OIG initiated an audit of FHWA and State DOT oversight of projects administered by Local
         5           Public Agencies (LPAs). The objective of this audit is to assess the effectiveness of FHWA's process to improve State
                     oversight of LPA projects.

       No.                                   OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
         1
                     to provide effective oversight to ARRA-funded projects and meet new requirements
         2           Continue to monitor for fraudulent schemes in the contracting process.




                                                                                                                  DOT OIG Monthly Report Num 8 10-31-09
                                                                                   OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0
  Reporting OIG: Department of Transportation - OIG
   Month Ending 10/31/2009
           Date:

                                                                                      TRAINING ACTIVITIES
                                                                                                                                                 Hours of
                                                                                                                     Length of                   Training                 Presentation    Average
                                                  Target                            Training Location   Date of                    Number of                   Cost of
     No.               Type of Training                        Title of Training                                     Training                   Provided                   with Other    Evaluation
                                                 Audience                              (City, State)    Training                  Participants                 Training
                                                                                                                      (hours)                    (length x                    OIGs         Rating
                                                                                                                                               participants)
                                                            Fraud
       1         Fraud Prevention/Awareness   Mixed         Prevention/Awareness    New York, NY         10/5/2009            1           145            145
                                                            Briefing
                                                            Fraud
       2         Fraud Prevention/Awareness   Mixed         Prevention/Awareness    Harrisburg, PA       10/9/2009            1            25             25
                                                            Briefing
                                                            Fraud
       3         Fraud Prevention/Awareness   Mixed         Prevention/Awareness    Florida             10/21/2009            1            50             50
                                                            Briefing
                                                            Fraud
       4         Fraud Prevention/Awareness   State         Prevention/Awareness    Jackson, TN         10/26/2009            1            82             82
                                                            Briefing
                                                            Fraud
       5         Fraud Prevention/Awareness   Federal       Prevention/Awareness    Carleston, WV       10/27/2009            1            14             14
                                                            Briefing
                                                            Fraud
       6         Fraud Prevention/Awareness   Mixed         Prevention/Awareness    Nashville, TN       10/27/2009            1           105            105
                                                            Briefing
                                                            Fraud
       7         Fraud Prevention/Awareness   State         Prevention/Awareness    Knoxville, TN       10/28/2009            1            45             45
                                                            Briefing
                                                            Fraud
       8         Fraud Prevention/Awareness   Mixed         Prevention/Awareness    Nashville, TN       10/28/2009            1            40             40
                                                            Briefing
                                                            Fraud
       9         Fraud Prevention/Awareness   State         Prevention/Awareness    Chattanooga, TN     10/29/2009            1            32             32
                                                            Briefing
                                                            Fraud
      10         Fraud Prevention/Awareness   Mixed         Prevention/Awareness    New York, NY        10/30/2009            1           169            169
                                                            Briefing
                                                                                                                      TOTAL               707            707




                                                                                                                                                                               DOt OIG Monthly Report Num 8 10-31-09
                                                                           OIG Recovery Act Monthly Report



                                     OUTREACH ACTIVITIES

                                        Number of
                                      Organizations                              Outreach
          Organization to which                           Description of                          Date of
No.                                   Represented                              Location (City,
           Outreach Provided                                Outreach                             Outreach
                                       at Outreach                                 State)
                                         Session
      New York City Metropolitan                      Discussed various
1                                                 1                          New York, NY         10/1/2009
      Transportation Authority                        ARRA-related matters
                                                      Discussed airport
2     Missman Staley & Associates                 1   improvement program Rock Island, IL         10/5/2009
                                                      project oversight
      Washington Metropolitan Area                    Discussed ARRA-
3                                                 1                          Washington, DC       10/6/2009
      Transit Authority                               funded projects
      Maine Department of Attorney                    Discussed Maine ARRA-
4                                                 1                          Augusta, ME          10/8/2009
      General                                         funded projects
      DC Department of                                Discussed ARRA-
5                                                 1                          Washington, DC      10/12/2009
      Transportation                                  funded projects
      Illinois Department of                          Discussed oversight of
6                                                 1                          Schaumburg, IL      10/14/2009
      Transportation                                  Federal-Aid projects
      Southeastern Pennsylvania                       Discussed SEPTA
7                                                 1                          Philadelphia, PA    10/15/2009
      Transportation Agency                           ARRA-funded projects
                                                      Discussed New
      New Hampshire Department of
8                                                 1   Hampshire ARRA-        New Hampshire       10/16/2009
      Transportation
                                                      funded projects
                                                      Discussed oversight of
      Illinois Department of
9                                                 1   aiport improvement     Illinois            10/19/2009
      Transportation
                                                      program projects
      District of Columbia                            Discussed ARRA-
10                                                1                          Washington, DC      10/23/2009
      Department of Transportation                    funded projects
                                                      Discussed ARRA
      Illinois Department of
11                                                1   coordination and       Chicago, IL         10/27/2009
      Transportation
                                                      outreach efforts
                                                      Discussed six ARRA-
      Oklahoma Aeronautices                           funded airport
12                                                1                          Oklahoma            10/27/2009
      Commission                                      improvement program
                                                      projects
                                                      Discussed New York
      New York City Metropolitan
13                                                1   State stimulus task    New York, NY        10/29/2009
      Transportation Authority
                                                      force




                                                                                                              DOt OIG Monthly Report Num 8 10-31-09
